s

:i

i

*

APPENDIX

A

GILBERT MONTREZ GARDNER

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 82
September Term, 2020

Vo

*
*
*

STATE OF MARYLAND

(No. 946, Sept. Term, 2019
Court of Special Appeals)
(No. 118071008, Circuit
Court for Baltimore City)

ORDER

Upon consideration of the petition for a writ of certiorari to the Court of
Special Appeals filed in the above-captioned case, it is this 24th day of July, 2020

ORDERED, by the Court of Appeals of Maryland, that the petition be, and
it is hereby, DENIED as there has been no showing that review by certiorari is. desirable
and in the public interest.

/s/ Mary Ellen Barbera
Chief Judge

Annx 1 A

.*

APPENDIX

8

\

*

Circuit Court for Baltimore City
Case No. 118071008
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 946
September Term, 2019 .

GILBERT GARDNER
v.
STATE OF MARYLAND

Fader, C.J.,
Beachley,
Battaglia, Lynne A.
(Senior Judge, Specially Assigned),
JJ.

Opinion by Fader, C.J.

Filed: April 16, 2020

*This is an unreported opinion, and it may not be cited in any paper, brief, motion, or other
document filed in this Court or any other Maryland Court as either precedent within the
rule of stare decisis or as persuasive authority. Md. Rule 1-104.
Appx 1 B

-Unreported Opinion

A jury sitting in the Circuit Court for Baltimore City convicted Gilbert Gardner, the
appellant, of first-degree murder, conspiracy to commit first-degree murder, and use of a
firearm in the commission of a crime of violence. Mr. Gardner contends that his conviction
must be reversed for four reasons: (1) the trial court abused its discretion in asking a
compound voir dire question during jury selection; (2) the trial court abused its discretion
in admitting lay opinion testimony; (3) the trial court abused its discretion in excusing a
seated juror during trial; and (4) the evidence was insufficient to sustain the convictions.
We conclude that the court did not abuse its discretion and that the evidence was sufficient
to sustain the convictions. Accordingly, we will affirm the judgments.
BACKGROUND
The Underlying Incident and Trial Evidence
On February 13, 2018, Sadik Griffin was shot seven times and killed on the 3800
block of Elmley Avenue in Baltimore. Mr. Gardner was arrested in connection with the
shooting and charged with murder, conspiracy to commit murder, and use of a firearm in
the commission of a crime of violence.
The evidence at trial included the following:
® Kimberly Sedlak testified that she was in the kitchen of her home, located on
Chesterfield Avenue between Juneway and Elmley Avenue, when she heard
“five or six” gunshots. Seconds later, she looked out her back window,
facing an alleyway connecting Juneway and Elmley Avenue, and saw an
African-American male running “hurriedly, very fast” up the alley towards
Juneway. Ms. Sedlak testified that she then exited her house, “looked down
the alley,” and saw a body lying in front of a store located on Elmley Avenue.
® Two security cameras posted at a house in the area of Chesterfield Avenue
and Juneway captured audio and video from around the time of the shooting.
One video, taken by a camera facing Chesterfield Avenue, shows a silver
Appx 2 a

-Unreported Opinion-

BMW driving away from the 3800 block of Elmley Avenue around the time
of the shooting. The second video, taken by a camera facing the alleyway ■
connecting Juneway and Elmley Avenue, shows a silver BMW stopping on
Juneway. An unidentified man then exits the passenger seat of the vehicle,
closes the door, and walks up the alleyway toward Elmley Avenue.
Approximately ten to 15 seconds later, the passenger-side door of the vehicle
opens from the inside and the same unidentified man runs back to the vehicle.
The man then enters the vehicle through the open passenger-side door, and
the vehicle drives away.
® The State also introduced into evidence video footage taken by a third
security camera, facing the intersection of Juneway and Chesterfield Avenue,
which was posted at a different house in the area. That camera captured a
silver BMW driving away from the 3800 block of Elmley Avenue around the
time of the shooting.
•

Richard Shoemaker, who lived in the 3900 block of Chesterfield Avenue,
testified that he was taking groceries from his car into his home when he
“observed a vehicle pull up across the street.” He observed the driver exit
the vehicle and greet another person who had come out of a nearby house.
The driver then “jumped back in the driver’s seat of the vehicle” and “took
off at a fast rate of speed.” “Within the next 2 or 3 minutes,” Mr. Shoemaker
“heard like six to ten gunshots.” The State introduced into, evidence video
footage taken from a security camera posted at Mr. Shoemaker’s house and
facing Chesterfield Avenue. The video shows a silver BMW stopping in
front of a home across the street. The driver then exits the vehicle and greets
a person who had come out of a nearby home. That person then appears to
interact with someone in the BMW’s passenger seat. Approximately one
minute later, the vehicle’s driver jogs back to the vehicle and drives away.

•

Charles Thomas identified himself in testimony as the person shown
interacting with the driver of the silver BMW in the video taken by
Mr. Shoemaker’s security camera. Mr. Thomas identified the driver as
“Gil.” In response to the prosecutor’s question, “And the individual that you
know as Gil, do you see that, individual in the courtroom today?” Mr. Thomas
initially replied, “Yeah,” although he answered “No” when asked the
question a second time.

® Mr. Gardner stipulated that he was the driver of the silver BMW depicted in
the four videos. Mr. Gardner also stipulated that, when he was arrested two
days after the shooting, he was wearing clothing that matched the clothing
he had worn on the day of the shooting, as captured on the video taken by
Mr. Shoemaker’s security camera.
Appx 3 B

2

Unreported Opinion

DISCUSSION
I.

The Trial Court Did Not Abuse Its Discretion in Asking a
Compound Voir Dire Question During Jury Selection.
Mr. Gardner first argues that the trial court abused its discretion in asking a

compound question during jury selection. The court posed the following question:
This question has three parts, I believe. Once again, I’m going to ask you to
stand if any one of them apply to you but I ask that you wait until P ve asked
all of the parts before you stand.
If you have ever been charged with a crime similar to the types of charges in
this case; if you ever have been the victim of a crime similar to the types .
charged in this case; or if you have ever had a negative experience with the
criminal justice system that would affect your ability to decide this case fairly
and impartially based on the evidence, please stand if any of those apply to
you.
Several prospective jurors stood in response to the trial court’s question.
Following voir dire, the court asked the prosecutor and defense counsel whether
either had any objections or exceptions to the voir dire. Defense counsel stated that the
final part of the question quoted above called upon the jurors to “evaluate their [own]
fairness.” The court agreed, but opined that the question was nonetheless acceptable
because the final part was “not a necessary question” and “not required” under Maryland
law.
Mr. Gardner concedes that the question at issue is not a mandatory question and that
it was not requested by either the State or the defense, but contends that the court
nonetheless abused its discretion in asking a question “that allowed the prospective jurors
to make the call on their own impartiality with no consideration by the court of the facts
supporting such a conclusion.”
3

flppx 4 B

-Unreported Opinion-

“Voir dire, the process by which prospective jurors are examined to determine
whether cause for disqualification exists, is the mechanism whereby the right to a fair and
impartial jury, guaranteed by Art. 21 of the Maryland Declaration of Rights, is given
substance.” Dingle v. State, 361 Md. 1, 9 (2000) (internal citations omitted). “To that end,
‘on request, a trial court must ask a voir dire question if and only if the voir dire question
is reasonably likely to reveal specific cause for disqualification.’” Collins v. State, 463
Md. 372, 376 (2019) (quoting Pearson v. State, 431 Md. 350, 357 (2014)). “There are two
categories of specific cause for disqualification: (1) a statute disqualifies a prospective
juror; or (2) a collateral matter is reasonably liable to have undue influence over a
prospective juror.” Id. This Court “reviewfs] the trial judge’s rulings on the record of the
voir dire process as a whole for an abuse of discretion.” Washington v. State, 425 Md. 306,
314 (2012) .
The Court of Appeals addressed the propriety of compound voir dire questions in
Dingle, 361 Md. 1. There, during jury selection, the defendant requested that the trial court
ask a series of questions regarding whether prospective jurors “had certain experiences or
associations” (i.e., whether they had been “victimfs] of crime[sj” or were “member[sj [of]
any victims’ rights group[s]”). Id. at 3 & n.3. The court agreed, but merged with each of
the defendant’s requested inquiries a further question asking “whether the experience or
association . . . would affect the prospective juror’s ability to be fair and impartial.” Id. at
3-4. The court instructed each prospective juror to stand only “if your answer is yes to
both parts of the question.” Id. at 5. Reversing the convictions, the Court of Appeals held

4 -

flppx 5 B

Unreported Opinion-

that the trial court had erred in posing the compound questions. Id. at 21. The Court
observed that the trial judge, not “the venire or the individual venire persons,” “must decide
whether, and when, cause for disqualification exists for any particular venire person.” Id.
at 14-15. By asking jurors to divulge certain experiences or associations only if they first
concluded that they could not be fair and impartial as a result, the trial court had (1) failed
to exercise its “responsibility to decide .. . whether any of the venire persons occupying
the questioned status or having the questioned experiences should be discharged for cause,”
and (2) “denied [the defendant] the opportunity to discover and challenge venire persons
who might be biased.” Id. at 17.
- In White v. State, 374 Md. 232 (2003), the Court revisited the issue of compound
voir dire questions.

There, even though certain questions were posed in the same

compound manner as in Dingle,1 the Court affirmed the convictions. Id. at 238-48. The
Court explained that, although “disapproved Dingle-type questions, standing alone, would
constitute reversible error,” the trial judge’s use of compound questions in White was not ^
erroneous. Id. at 242. When viewed as a whole, the record established that “the painstaking
individual voir dire conducted by the trial judge created a reasonable assurance that
partiality and bias would have been uncovered.” Id.

1 By way of example, one of the questions asked was: “Is there any prospective
juror . . .. who has ever been employed in any fashion at any time by any type of law
enforcement agency, either civilian or military, and because of that employment you
believe that you could not render a fair and impartial verdict in this case?” White, 374 Md.
at 237.
5

Appx 6 8

-Unreported Opinion-

More recently, the Court addressed the use of compound questions in connection
with mandatory “strong feelings” voir dire questions. See Pearson v. State, 437 Md. 350,
360 (2014) (“[0]n request, a trial court must ask during voir dire whether any prospective
juror has ‘strong feelings about’ the crime with which the defendant is charged.” (quoting
State v. Shim, 418 Md. 37, 54 (2011), abrogated on other grounds by Pearson, 437 Md.
350)). In Pearson, the Court held that, when a requested voir dire question is mandatory—
i.e., “reasonably likely to reveal [specific] cause for disqualification,” id. at 357 (quoting
Moore v. State, 412 Md. 635, 663 (2010))—the use of “Dmg/e-type” compound questions
constitutes reversible error. Id. at 363-64.
Last year, in Collins v. State, 463 Md. 372, the Court reaffirmed that when a voir
dire question is mandatory, “it is improper for a trial court to ask the . . . question in
compound form.” Id. at 379. In so holding, the Court rejected an argument by the State
that other questions asked by the trial judge adequately “substitute^] for a properlyphrased ‘strong feelings’ question.” Id. at 398. The other questions included whether
prospective jurors “had something happen to [them] in the past that would prevent [them]”
from reaching a fair verdict; whether they “would allow sympathy, pity, anger[,] or any
other emotion to influence [their] verdict in any way”; and whether, for “any other reason,” .
they could not “be [ ] fair and impartialjurorfs] in this case.” Id. at 398-99. The Court
made clear, however, that the additional questions asked by the trial court were not
themselves improper:
To be clear, a trial court may ask the “something in the past,” “sympathy,
pity, anger, or any other emotion,” and “catchall” questions. Our point with

6

Appx 7 B

1

-Unreported Opinion-

regard to the something in the past,” “sympathy, pity, anger, or any other
emotion, and catchall” questions is that . . . [they] did not substitute for
properly-phrased “strong feelings” questions,
Id. at 400.
Against that backdrop, we hold that the trial court in this case did not abuse its
discretion in asking prospective jurors if they “ha[d] ever had a negative experience with
the criminal justice system that would affect [their] ability to decide this case fairly and
impartially based on the evidence.” Although the Court of Appeals has “caution[ed] judges
to refrain from using . . , [compound] questions when conducting voir dire” White, 374
Md. at 242 n.4, doing so does not constitute reversible error when the question is not
mandatory, was not asked as a substitute for a question that is mandatory, was not requested
by either party, and when the remaining voir dire questions, “viewed as a whole,”
established “a reasonable assurance that partiality and bias would have been uncovered,”
id. at 242. That is the case here.
II.

The Trial Court Did Not Abuse its Discretion in Admitting Lay
Opinion Testimony.
Mr. Gardner contends that the circuit court abused its discretion in permitting

Baltimore City Police Detective Michael Vodarick, the lead investigator in the case, to
offer lay opinion testimony regarding his observations of a witness, Charles Thomas,
during a police interview. The following occurred during Detective Vodarick’s testimony:
[STATE]:

Now, the individual in question, Mr. Thomas, that you
had the opportunity to interview, did you see him in
court today?

[WITNESS]:

I did.

7

Appx 8 8

-Unreported Opinion-

[STATE]:

And can you describe, per your interview of
Mr. Thomas, his demeanor at the time that you
interviewed him?

[WITNESS]:

Didn’t want to be involved. Seemed to be scared.

[STATE]:

At any point in time, did you

[DEFENSE]:

Objection, Your Honor.

THE COURT:

Overruled.
* * *

[STATE]:

Okay. At any point in time in the investigation in your
interview with Mr. Thomas, did Mr. Thomas ever
identify who the front seat passenger was?

[WITNESS]:

No.

[STATE]:

In attempting to gain this information, how would you
describe Mr. Thomas’s demeanor when challenged with
questions as to the same?

[DEFENSE]:

Objection.

THE COURT:

You’re asking for a description of his demeanor?

[STATE]:

Correct.

THE COURT:

Overruled.

THE WITNESS:

He definitely felt like he didn’t want to be involved, He
was scared.
•

Mr. Gardner contends that the trial court erred in permitting Detective Vodarick to
testify that Mr. Thomas “didn’t want to be involved” and “definitely felt like he didn’t want
to be involved.” According to Mr. Gardner, those statements were not proper “lay opinion”

8

Appx 9 8

1

1

-Unreported Opinion-

testimony because they were not based on Detective Vodarick’s observations, but instead
expressed “the detective’s theory as to why Mr. Thomas had not identified the passenger.”
Maryland Rule 5-701 states that “[i]f [a] witness is not testifying as an expert, the
witness’s testimony in the form of opinions or inferences is limited to those opinions or
inferences which are (1) rationally based on the perception of the witness and (2) helpful
to a clear understanding of the witness’s testimony or the determination of a fact in issue.”
In other words, “such testimony must derive from personal knowledge,” and must “be
rationally connected to the underlying facts; helpful to the trier of fact[;] and not prohibited
by any other rule of evidence.” Rosenberg v. State, 129 Md. App. 221, 255 (1999). “The
admissibility of lay opinion is vested in the sound discretion of the trial court.” Id. A court
abuses its discretion when its decision “is ‘well removed from any center mark imagined
by the reviewing court and beyond the fringe of what that court deems minimally
acceptable.”’ Walter v. State, 239 Md. App. 168, 200 (2018) (quoting Moreland v. State,
207 Md. App. 563, 569 (2012)).
We hold that the trial court did not abuse its discretion in permitting the jury to hear
the disputed testimony.

As an initial matter, we observe that there was nothing

objectionable about the questions the State posed to Detective Vodarick. In both instances,
the prosecutor addressed the questions specifically and exclusively to what the detective
observed regarding Mr. Thomas’s demeanor. That was an appropriate subject for lay
opinion testimony because it was based on the witness’s personal knowledge and
observations at the time he conducted the interview.

9

Appx 10 0

-Unreported Opinion-

To be sure, if viewed in a vacuum, the detective’s answers might appear to provide

•1

■ an unwarranted assessment of Mr. Thomas’s mental state or feelings. -But read together
with the questions that prompted them, the answers convey Detective Vodarick’s personal
observations of Mr. Thomas’s demeanor. It is possible for a person to present the outward
appearance of being scared and of not wanting to be involved with questioning. Although
the State might have elicited more specific testimony from Detective Vodarick regarding
his observations of Mr. Thomas, we cannot say that the court abused its discretion in
concluding that the detective’s “opinions or inferences” were “rationally based on [his]
perception.” See Md. Rule 5-701. Moreover, Detective Vodarick’s opinion was “helpful
to a clear understanding of [his] testimony or the determination of a fact in issue,” namely,
why Mr. Thomas may have been reluctant to identify the passenger in Mr. Gardner’s
vehicle at the time of the shooting. Accordingly, the trial court did not abuse its discretion
in admitting Detective Vodarick’s testimony. See Bruce v. State, 328 Md. 594,630 (1992)
(“[L]ay opinions which are derived from first-hand knowledge, are rationally based, and
are helpful to the trier of fact are admissible.”).
III.

The Trial Court Did Not Abuse Its Discretion in Excusing a
Seated Juror During Trial.
Mr. Gardner contends that the trial court erred in excusing Juror No. 1, the jury’s

foreperson, during trial. During the afternoon of the first day of trial, the prosecutor
informed the court, out of the presence of the jury, that he was “concerned about Juror
No. 1 and his sleeping.” The prosecutor added that at “various stages . . . throughout the
day,” he had seen Juror No. 1 “nodding off.” Defense counsel suggested that the court

10

Appx 11 B

i

-Unreported Opinion-

instruct the jury about the importance of paying attention. The court agreed and asked both
parties to “keep an eye on it.” The court then addressed the jurors, telling them that their
job was “extremely important” and that they should inform the court if they were “getting
a little drowsy” and “could use a break.”
Later that day, the trial court, out of the presence of the jury, made the following
comments to counsel:
I am concerned about Juror No. 1. He was stone out. The sheriff brought it
to my attention, my law clerk’s attention, brought it to mine and it took a
little bit to wake him up. Think about that and let’s see how he’s doing
tomorrow, but I’m - a case this important, or any case is important, but to
have one of the jurors, and the foreperson in. particular,, miss most of the
evidence is worrisome, so give it some thought.
Counsel agreed to do so, and the trial court adjourned for the day.
When the parties returned to court the following morning, but before the jury was
Called in, the court spoke to Mr. Gardner personally about Juror No. l’s “difficult time,
staying awake.” Mr. Gardner acknowledged, “Yes, I’ve seen him.” The court observed:
that the juror “was out. He was sleeping. I have real concerns about that.” Mr. Gardner
agreed with the judge’s plan to “bring [Juror No. 1] in by himself, tell him that I noticed it
. . . and ask if yesterday was unusual or whether he thinks that he may continue to have
difficulties ... and see what he says.”
The trial court then called Juror No. 1 into the courtroom and informed him that he
had been observed .“drifting off and sometimes actually, falling asleep.” The court asked
the juror “whether there was anything going on yesterday” and if he thought “that might
be a problem for [him] today,” to which Juror No. 1 replied, “No.” The court then asked

11

Appx 12 B

A

-Unreported Opinion-

if the juror thought he could “stay awake and focus on the evidence,” to which Juror No. 1
replied, “Yeah.” In response to a question from the prosecutor, the juror said that he
thought he had fallen asleep during “the videos.” The court excused Juror No. 1 back to
the jury room and asked the parties to “keep an eye on it and see if it continues to be a
problem.” The court then called the jury back into the courtroom and the trial continued.
Approximately one hour later, the trial court took a brief recess. During the recess,
the court informed the parties that it had received a note from Juror No. 2, which
complained about “the hygiene of Juror No. 1.” The State moved to strike Juror No. 1, to
which defense counsel objected. When questioned by the court, Juror No. 2 elaborated
that the problem was an “oral hygiene issue” and that it was “making [him] very
uncomfortable and making [him] feel sick.” With the consent of the parties, the court
decided to rearrange some of the jurors’ seating positions so that Jurors No. 1 and 2 would
not be seated next to each other.
Approximately one hour later, the prosecutor informed the trial court, out of the
presence of the jury, that he had “noticed that [Juror No. 1] was nodding off’ again. The
following colloquy ensued:
THE COURT:

Madam Clerk passed up a note saying that [Juror No. 1]
was asleep. I’m terribly concerned with having this man
make a decision in this case when he’s apparently been
sleeping through much of the evidence. He was out,
huh?

[CLERK]:

Yeah. And the last time he made like a (indiscernible).

12

Appx '1 3 8

-Unreported Opinion-

[STATE]:

And the State would [] bring its motion to strike Juror
No. 1 for those reasons. I just - he had an opportunity
• to- •

[DEFENSE]:

I’ll continue to object. I expressed my concerns.

THE COURT:

And I do understand it and I take it very seriously. But
based on my observations throughout the trial, and the
observations of court staff and counsel and my staff, I’m
afraid that I am going to have to excuse him. Obviously,
it’s a very serious case and [] it’s important that all of
the jurors heard the evidence, especially he’s sitting as
Juror No. 1, which is our foreperson.

The trial court then excused Juror No. 1 and replaced him with an alternate juror, who had
been present for the entirety of the trial. No further changes were made to the makeup of
the jury.
Mr. Gardner contends that the trial court erred in excusing Juror No. 1 without
conducting additional voir dire to determine specifically what, if any, evidence the juror
had missed; whether the juror had really “fallen asleep,” as opposed to “just closed his
eyes”; and for how long he might have been asleep.
Rule 4-312(g)(3) states in pertinent part that “[a]t any time before the jury retires to
consider its verdict, the trial judge may replace any jury member whom the trial judge finds
to be unable or disqualified to perform jury service with an alternate.” “[T]he substitution
of an alternate juror for a regular juror Ties within the sound discretion of the trial judge
and such an exercise of discretion will not be disturbed on appeal unless arbitrary and
abusive in its application.’” Williams v. State, 231 Md. App. 156, 195 (2016). (quoting
James v. State, 14 Md. App. 689, 699 (1972)). This deferential “standard of review exists

13

Appx 14 B

-Unreported Opinion-

for two reasons.” Diaz v. State, 129 Md. App. 51, 59 (1999). “First, ‘the trial judge is
physically on the scene, able to observe matters not usually reflected in a cold record[.]”’
Id. at 59-60 (quoting State v. Cook, 338 Md. 598,615 (1995)). “Second, a defendant is not
entitled to a jury comprised of any particular group of individuals, but only to a jury that is
fair and impartialC Diaz, 129 Md. App. at 60 (citing Cook, 338 Md. at 614). As the Court
of Appeals has explained, “[a] defendant’s valued right to have his trial completed by a
particular tribunal should not be expanded to apply to a situation where a seated juror is
replaced with an alternate who has undergone the same selection process as the seated
jurors and has been present for the entire trial.” Gupta v. State, 452 Md. 103, 125 (2017)
(quoting Cook, 338 Md. at 614).
We hold that the trial court did not abuse its discretion in excusing Juror No. 1 and
replacing him with an alternate juror.

The juror was observed sleeping during the

presentation of evidence and admitted that he had done so. The court responded with a
general instruction to the entire jury and, later, a specific inquiry of Juror No. 1. Although
Juror No. 1 assured the court that he could stay awake through the remainder of the trial,
he was again observed falling asleep during presentation of the evidence. Under those
circumstances, we cannot say that the trial court erred or abused its discretion in replacing
Juror No. 1 with an alternate who had been present—and, apparently, awake—for the entire
evidentiary presentation. The record makes plain that the court’s decision was in no way
arbitrary or abusive, but instead was the result of careful consideration of the facts and
circumstances of the case. See Diaz, 129 Md. App. at 61 (noting that “[jjudicial discretion

14
Ap'px 15 a

-Unreported Opinion

... means a sound judgment exercised with regard to what is right under the circumstances
and without doing so arbitrarily or capriciously” (quoting Gunning v. State, 347 Md. 332,
351 (1997))).
IV.

The Evidence Adduced at Trial Was Sufficient to Sustain
Mr. Gardner’s Convictions.
Finally, Mr. Gardner claims that the evidence was insufficient to sustain his

convictions.

Mr. Gardner notes that the State proceeded under the theory that

Mr. Gardner’s passenger committed the actual murder and that Mr. Gardner was guilty as
an accomplice and co-conspirator. Mr. Gardner maintains, however, that the State failed
to establish that Mr. Gardner’s passenger was the same person who shot the victim..
Mr. Gardner also claims that the State failed to show that he knew the shooting was going
to happen or that he did anything to further the crime.
“The test of appellate review of evidentiary sufficiency is whether, ‘after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.’” Donati v.
State, 215 Md. App. .686, 718 (2014)). That standard of review “applies to all criminal
cases, including those resting upon circumstantial evidence,” because “generally, proof of
guilt based in whole or in part on circumstantial evidence is no different from proof of guilt
. based on direct eyewitness accounts.” Neal v. State, 191 Md. App. 297, 314 (2010).
Moreover, “the limited question before an appellate court is not whether the evidence
should have or probably would have persuaded the majority of fact finders but only
whether it possibly could have persuaded any rational fact finder.” Darling v. State, 232

15

Appx 16 B

-Unreported Opinion-

Md. App. 430, 465 (2017) (quoting Allen v. State, 158 Md. App. 194, 249 (2004)). In
making that determination, “[w]e ‘must give deference to all reasonable inferences [that]
the fact-finder draws, regardless of whether [we] would have chosen a different reasonable
inference.’” Donati, 215 Md. App. at 718 (quoting Cox v. State, 421 Md. 630,657 (2011)).
Further, “[w]e defer to the fact finder’s ‘opportunity to assess the credibility of witnesses,
weigh the evidence, and resolve conflicts in the evidence.’” Neal, 191 Md. App. at 314
(quoting Sparkman v. State, 184 Md. App. 716, 740 (2009)).
As Mr. Gardner correctly asserts, the State prosecuted him under the theory that he
conspired with his passenger to murder the victim and that, although he did not actually
kill Mr. Griffin, he “aided and abetted” the person who ultimately used a firearm to commit
the murder. “An aider is one who assists, supports or supplements the efforts of another in
the commission of a crime.” Kohler v. State, 203 Md. App. 110, 119 (2012) (quoting
Handy v. State, 23 Md. App. 239, 251 (1974)). “An abettor is one who instigates, advises
or encourages the commission of a crime.” Id. “If the State proceeds under a theory of
aiding and abetting, the State must present evidence that the alleged aider and abettor
participated by ‘knowingly associating with the criminal venture with the intent to help
commit the crime, being present when the crime is committed, and seeking, by some act,
to make the crime succeed.’” Davis v. State, 207 Md. App. 298, 319 (2012) (quoting
Md. Crim. Pattern Jury Instructions § 6:01).

“An accomplice . . . who knowingly^

voluntarily, and with common interest with the principal offender, participates in the
commission of a crime ... is a guilty participant, and in the eye of the law is equally

16

Appx 17 £ j

-Unreported Opinion

culpable with the one who does the act.” Owens v. State, 161 Md. App. 91, 99-100 (2005)
(quoting Woods v. State, 315 Md. 591, 615 n.10 (1989)).
A conspiracy occurs when “two or more persons combine!] or agree[] to accomplish
some unlawful purpose, or to accomplish a lawful purpose by unlawful means.” Savage v.
State, 226 Md. App. 166, 174 (2015).

“When the object of the conspiracy is the

-commission of another crime,... the specific intent required for the conspiracy is not only
the intent required for the agreement but also, pursuant to that agreement, the intent to
assist in some way in causing that crime to be committed.” Mitchell v. State, 363 Md. 130,
, 146 (2001). The essence of a criminal conspiracy is the unlawful agreement. “The crime
. . . is complete when the agreement to undertake the illegal act is formed.” Savage, 226
Md. App. at 174. “The agreement need not be formal or spoken, provided there is a
meeting of the minds reflecting a unity of purpose and design.” Townes v. State, 314 Md.
71, 75 (1988). “A conspiracy may be shown through circumstantial evidence, from which
a common scheme may be inferred.” Hall v. State, 233 Md. App. .118, 138 (2017).
Here, testimonial and video evidence showed that, minutes prior to the shooting,
Mr. Gardner drove himself and an unidentified passenger to the vicinity of the crime, where .
Mr. Gardner parked his vehicle, exited, and spoke to Mr. Thomas. Shortly thereafter,
Mr. Gardner hurriedly reentered his vehicle and drove away at a high rate of speed.
Minutes later, he stopped his vehicle at the mouth of the alley leading to the 3800 block of
Elmley Avenue. The unidentified passenger exited Mr. Gardner’s vehicle and traveled on
foot down the alley toward Elmley Avenue. Seconds later, seven gunshots rang out, and

17

Appx 18 B

-Unreported Opinion-

seconds after that, the unidentified passenger ran back down the alley to Mr. Gardner’s
waiting vehicle. By the time the passenger reached Mr. Gardner’s vehicle, Mr. Gardner
had moved the vehicle forward several feet and had pushed open the passenger-side door
so that the unidentified person could reenter the car more quickly. Once the unidentified
person was back in the car, Mr. Gardner drove away at a high rate of speed. Not long after,
the victim, Sadik Griffin, was discovered on the 3800 block of Elmley Avenue suffering
from seven gunshot wounds. Mr. Griffin later died of his injuries.
From that evidence, reasonable jurors could have inferred that the passenger in
Mr. Gardner’s vehicle was the person who shot and killed Mr. Griffin, and that
Mr. Gardner not only was present when the crime was committed, but also knowingly
aided, counseled, commanded, or encouraged the shooter in the commission of the crimes
by (1) driving the shooter to the scene of the crime, (2) waiting for the shooter to commit
the crime, (3) opening the door of the car to facilitate the shooter’s escape, and then
(4) immediately driving away with the shooter. Finally, given the concerted and deliberate
nature of Mr. Gardner’s and the shooter’s actions before, during, and after the crime, a
reasonable juror could have found that they conspired together to commit first-degree
murder. See Jones v. State, 132 Md. App..657, 660 (2000) (“If two or more persons act in
what appears to be a concerted way to perpetrate a crime, we may . . . infer a prior
agreement by them to act in such a way.”). Accordingly, the evidence adduced at trial was
sufficient to sustain

18

Appx 19 B

-Unreported Opinione

Mr. Gardner’s convictions of first-degree murder, conspiracy to commit first-degree
murder, and use of a handgun in the commission of a crime of violence.

JUDGMENTS OF THE CIRCUIT
COURT FOR BALTIMORE CITY
AFFIRMED. COSTS TO BE PAID
BY APPELLANT.

19

Appx 20 B

&
9

4

APPENDIX

C

. *

Instructions

(

CHAPTER SIX
Parties
MPJI-Cr 6:00
ACCOMPLICE LIABILITY

f.

The defendant may be guilty of (crime) as an accomplice, even though
the defendant did not personally commit the acts that constitute that
crime. In order to convict the defendant of (crime) as an accomplice, the
State must prove that the (crime) occurred and that the defendant, with the
intent to make the crime happen, knowingly aided, counseled, com­
manded, or encouraged the commission of the crime, or communicated to
[the] [a] primary actor in the crime that [he] [she] was ready, willing, and
able to lend support, if needed.
[A person need not be physically present at the time and place of the
commission of the crime in order to act as an accomplice.]
[[The mere presence of the defendant at the time and place of the
commission of the crime is hot enough to prove that the defendant is an
accomplice. If presence at the scene of the crime is proven, that fact may
be considered, along with all of the surrounding circumstances, in deter­
mining whether the defendant intended to and was willing to aid [the] [a]
primary actor, for example, by standing by as a lookout to warn the pri­
mary actor of danger, and whether the defendant communicated that will­
ingness to [the] [a] primary actor.]]

MPJI-Cr 6:01
ACCESSORY AFTER THE FACT
An accessory after the fact is a person who, with knowledge that a
crime has been committed, assists the offender with the intent to hinder of
prevent the offender ’s arrest, prosecution, dr trial. In order to convict the
defendant, the State must prove:
(1) that the crime of (felony) has been committed;
(2) that the defendant knew that the crime of (felony) had been com­
mitted;
(3) that the defendant gave assistance to the person who committed
the crime; and

159

Appx 1 C

